STATE OF NEW YORK
OFFICE OF THE ATTORNEY

GENERAL
BARBARA D. UNDERWOOD

LETITIA JAMES
ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

Telephone: (518) 776-2317
June 23, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street N.E.
Washington, D.C. 20543
Re:

Morabito v. New York, No. 19-1319
Request for Extension of Time to File Brief in Opposition to
Petition for Certiorari

Dear Mr. Harris:
The New York Office of the Attorney General represents the
respondent, the State of New York, in the above case. The petition for a
writ of certiorari was filed on May 19, 2020. The brief in opposition to the
petition is currently due on Monday, July 20, 2020.
Pursuant to Rule 30.4, due to other conflicting commitments in the
month of July, I respectfully request that the time for filing the brief in
opposition to the petition be extended by 30 days, to Wednesday, August
19, 2020. An extension of time would better enable preparation of a
response that will assist the Court.

THE CAPITOL, ALBANY, NEW YORK

12224-0341 • PHONE (518) 776-2050 • FAX (518) 915-7723 *NOTFORSERVICE OF PAPERS
WWW.AG.NY.GOV

I have asked the two pro se plaintiffs whether they object to the
above request, but have not received an answer.
Thank you for your attention to this matter.
Respectfully submitted,

;;~4,,,(--V'~~~~~FREDERICK A. BRODIE
Assistant Solicitor General
cc:

David R. Morabito
Collette M.G. Morabito
11 7 West Commercial Street
P.O. Box 187
East Rochester, NY 14445

2

